                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

11   Case Number: A-03100053
                                                                                  11          Page 1 of 1



           As part of a review of NSF conference, workshop, and symposia grants, we collected a stratified
           random sampling of relevant FY-01 NSF awards to review. We wrote to each institution
           requesting documentation of expenditures under the award. In this case, documents provided by
           the institution' appeared to show that the registration fees for the participants attending a
           workshop supported by the NSF award2were paid by the students to the institution and not
           reimbursed as intended according to the award. This would have made these funds program
           income.

           We wrote to the institution requesting further explanation. The institution responded that it had
           no program income with this award. It provided documentation and clarification supporting this
           claim; each student supported with NSF funds from this award to attend the conference was
           reimbursed for the registration fee. Therefore, this award generated no program income.
 I
           This case is closed and no further action will be taken.




 NSF OIG Fonn 2 (1 1/02)
